Via Electronic Filing

January 12, 2020

Danny Bickel
Deputy Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-374, Continental Resources, Inc. v. Zachary Buckles, Deceased, By and
Through His Personal Representative, Nicole R. Buckles, et al.

Dear Mr. Bickel:
Per my telephone conversation with you earlier today, I write to request a one-week
unopposed extension of the time to file a response to the petition for certiorari in this case. The
response is currently due on January 15, 2021, and I respectfully request that the deadline be
extended to and including January 22, 2021. The petitioner consents to this request. There is
good cause for this request for multiple reasons, including substantial disruption caused by the
failed insurrection in Washington, DC last week; ongoing emergency litigation filed my
colleagues and I yesterday in Environmental Defense Fund v. Environmental Protection
Agency, No. 21-cv-0003 in the District Court of Montana; and the press of other business. For
these reasons, my colleagues and I will require additional time to prepare an adequate response
to the petition. A short, seven-day extension will allow us to balance these other responsibilities
with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

cc: Counsel of Record

Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

Deepak Gupta

